      U.S. Department of the Interior
      Office of Inspector General

                                    Audit Report

                    Professional Service Contracts
                  Government of the Virgin Islands




No. 2002-I-0046                         September 2002
                                                                                   V-IN-VIS-0066-2001

                 United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL

                                        Caribbean Regional Office
                                       Federal Building, Room 207
                                    St. Thomas, Virgin Islands 00802

                                                                                September 30, 2002

Honorable Charles W. Turnbull
Governor of the Virgin Islands
No. 21 Kongens Gade
Charlotte Amalie, Virgin Islands 00802

Subject: Audit Report "Professional Service Contracts, Government of the Virgin Islands"
         (No. 2002-I-0046)

Dear Governor Turnbull:

       This report presents the results of our audit of administration of professional service
contracts by the Government of the Virgin Islands.

       Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the U.S. Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.

        Please provide a response to this report by November 25, 2002. The response should provide
the information requested in Appendix 5 and should be addressed to our Caribbean Regional Office,
Federal Building - Room 207, Charlotte Amalie, Virgin Islands 00802.

                                              Sincerely,


                                              Arnold E. van Beverhoudt, Jr.
                                              Regional Audit Manager

cc:    Commissioner of Property and Procurement
[ Page intentionally left blank ]
EXECUTIVE SUMMARY

                        During fiscal years 2000 and 2001, the Virgins Islands
Award and               Government issued 388 professional services contracts for
Administration of       approximately $100 million. The award and administration of
Professional Service    these contracts was not adequate to protect the Government’s
Contracts Inadequate    interests. For example, the Government:

                        ‘ Paid $1 million during a 3-year period to a firm which did
                            not have a contract.

                        ‘ Awarded contracts non-competitively without written
                            justifications for the actions.

                        ‘ Awarded contracts without evidence that funding was
                            available to pay the full contract costs.

                        ‘ Allowed contractors to begin work before contracts were
                            awarded.

                        ‘ Awarded contracts to firms which were not licensed to do
                            business in the Virgin Islands.

                        ‘ Allowed retirees from the Virgins Islands Government to
                            receive both retirement annuities and contract payments in
                            violation of Virgin Islands law.

                        ‘ Failed to monitor contractor performance and overpaid
                            contractors.


                        We made ten recommendations to the Governor of the Virgin
Recommendations         Islands to enforce or implement procedures to address the
and Response from       deficiencies discussed in the report. We received a response to
the Government of the   the ten recommendations from the Commissioner of Property
Virgin Islands          and Procurement who agreed with all ten recommendations. We
                        requested additional information on actions to be taken to
                        implement the recommendations.




                                     1
[ Page intentionally left blank ]




               2
CONTENTS
                   ................................................ 1
EXECUTIVE
SUMMARY

                   Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
INTRODUCTION       Objective and Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
                   Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                   Control of Contracting Inadequate . . . . . . . . . . . . . . . . . . . 7
RESULTS OF AUDIT   Monitoring of Contractor Performance
                       and Payment Not Sufficient . . . . . . . . . . . . . . . . . . . 15

                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
RECOMMENDATIONS

                   1.     Monetary Impact . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              20
APPENDICES         2.     Prior Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . .              21
                   3.     Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . .                 22
                   4.     Status of Recommendations . . . . . . . . . . . . . . . . . . . . .                    28




                                       3
[ Page intentionally left blank ]




               4
INTRODUCTION
                The Virgin Islands Code (3 V.I.C. § 218) makes the Department
BACKGROUND      of Property and Procurement (Property and Procurement)
                responsible for providing the Government of the Virgin Islands
                with "an economical and efficient system for the procurement
                and supply of all property and non-personal services."
                Accordingly, the Commissioner of Property and Procurement is
                the Government’s primary contracting officer. The
                Government’s procurement laws are also contained in the Virgin
                Islands Code (31 V.I.C. Chapter 23).

                The Virgin Islands Rules and Regulations, which interpret and
                apply the laws contained in the Code, require that contracts for
                the purchase of goods and services be awarded on the basis of
                competitive sealed bids whenever feasible. When contracting
                for professional services and in instances when the use of sealed
                bids is not feasible, contracts may be awarded by competitive
                negotiation or, if the goods or services are available from only
                one source, by direct negotiation with the vendor. In June 2001,
                Property and Procurement issued a manual entitled "The
                Procurement Process: How to Do Business With The
                Department," which outlines the procurement procedures,
                including sample forms.


                The objective of the audit was to determine whether the
OBJECTIVE AND   Government (1) awarded professional service contracts in
SCOPE           accordance with the procurement requirements of the Virgin
                Islands Code and the Virgin Islands Rules and Regulations, (2)
                adequately monitored the performance of professional service
                contractors, and (3) paid contractors in accordance with contract
                provisions.

                Property and Procurement issued 212 professional service
                contracts totaling $43.6 million during fiscal year 2000 and
                176 professional service contracts totaling $57.1 million during
                fiscal year 2001. However, Property and Procurement had only
                one staff member (stationed on St. Thomas) available to process
                professional service contracts. The scope of the audit included
                a review of the professional service contracts awarded during
                fiscal years 2000 and 2001, and other periods as appropriate.

                To accomplish our audit objective, we interviewed officials and
                reviewed procurement files and payment documents at the


                             5
              Department of Property and Procurement, the Department of
              Finance, and selected operating agencies of the Government.

              Our audit was conducted in accordance with the "Government
              Auditing Standards," issued by the Comptroller General of the
              United States. Accordingly, we included such tests of records
              and other auditing procedures that were considered necessary
              under the circumstances. The "Standards" require that we obtain
              sufficient, competent, and relevant evidence to afford a
              reasonable basis for our findings and conclusions.

              As part of our audit, we evaluated the internal controls related to
              the procurement of professional services, the monitoring of
              contractor performance, and the payment of contractor invoices
              to the extent we considered necessary to accomplish the audit
              objective. Internal control weaknesses identified are discussed
              in the Results of Audit section of this report.                The
              recommendations, if implemented, should improve the internal
              controls in these areas.


              During the past 5 years, the Office of Inspector General did not
PRIOR AUDIT   issue any reports on professional service contracts of the
COVERAGE      Government of the Virgin Islands. However, in June 1989 we
              issued the audit report "Professional and Consulting Services,
              Government of the Virgin Islands" (see Appendix 2).




                            6
RESULTS OF AUDIT
                            The Department of Property and Procurement (Property and
CONTROL OF                  Procurement) was not able to effectively control the contracting
CONTRACTING                 for professional services by Government executive agencies. As
INADEQUATE                  a result, those agencies regularly violated procurement
                            requirements.


Payments of About           During fiscal years 1998 to 2001, a vendor provided computer
$1 Million Made Without a   services to the Department of Public Works and 11 other
Contract                    Government agencies. The agencies paid approximately
                            $1 million for these services although the vendor did not have a
                            contract with the Government or a Virgin Islands business
                            license.

                            At the Department of Public Works, the vendor was paid a
                            monthly fee of $4,950 to provide services such as purchasing
                            computer hardware and software, maintaining the computer
                            network and telephone system, and providing other
                            computer-related consulting services. During the 4-year period,
                            the vendor was paid $375,153 for these services (which included
                            the purchase price of computer hardware and software). The
                            Commissioner of Public Works told us that the vendor had
                            already been providing services to the Department when he
                            assumed his position, and he was surprised to learn that the
                            vendor did not have a contract with the Department. The
                            Commissioner further stated that the Department had
                            experienced major problems with the quality of the vendor’s
                            services, including problems with the vendor double billing for
                            work performed, "sabotaging" the Department’s computer
                            network, locking employees out of the network, and providing
                            used rather than new computer equipment.

                            Our review of the contract registers at the Property and
                            Procurement disclosed that the vendor did not have a contract
                            with Public Works or any of the other 11 Government agencies.
                            Our review of records at the Department of Licensing and
                            Consumer Affairs also disclosed that the vendor was not issued
                            a business license until June 2001. Despite these factors, a
                            review of vendor payment records in the Government’s financial
                            management system disclosed that during fiscal years 1998 to
                            2001, the vendor received payments from 12 Government
                            agencies (including Public Works) totaling $1,019,791. Of that
                            amount $266,283 represents Federal funds.


                                         7
                           The hiring of this vendor for extensive consulting work valued
                           at more than $1 million, without any record of competition and
                           without a written contract, violated the procurement
                           requirements of the Virgin Islands Code (31 V.I.C. Chapter 23).
                           For example, the Code requires that contracts for goods or
                           services valued at more than $5,000 be in writing and be
                           awarded on the basis of competitive procurement procedures,
                           and that vendors and contractors have valid business licenses.
                           We have referred this matter to our Office of Investigations.


Justification for          Procurement regulations established by Property and
Noncompetitive Contracts   Procurement require that a letter of justification be submitted by
Was Lacking                any agency that bypasses Property and Procurement and
                           negotiates a contract of more than $5,000. The justification
                           letter should describe the need for the contract and the method
                           of selecting the contractor, justify the sole-source procurement,
                           and identify the source of funding for the contract.

                           We reviewed a sample of 70 contracts from both fiscal years
                           totaling $24.3 million. Of the 70 contracts reviewed, 59 should
                           have been awarded through the competitive procurement
                           process. However, we found that only 6 of these 59 contracts
                           were competitively awarded. Further, of the 53 contracts that
                           were not competitively awarded, the files for 35 contracts did
                           not contain letters justifying the lack of competition. For
                           example:

                           ‘ In October 1998, the Department of Public Works awarded
                               a $125,000 contract for garbage removal services. There
                               was no justification letter in the contract file from Public
                               Works explaining the need for the contract, the method or
                               justification for selecting the contractor, and the source of
                               funding for the contract.

                           ‘ In August 2001, the Office of the Governor awarded a
                               $35,000 contract for cultural dance instruction. A letter to
                               the Commissioner of Property and Procurement that was
                               contained in the contract file simply noted that the contract
                               was attached, stated the reason for the contract, and
                               requested approval and processing of the contract. The
                               letter did not mention the method of selecting the
                               contractor or the proposed funding source for the contract.

                           ‘ In December 1999, the Department of Education awarded
                               a $216,372 contract for construction services during the
                               period of June 1997 to February 2000. A letter to the

                                         8
                            Commissioner of Property and Procurement that was
                            contained in the contract file only stated the scope of the
                            contract and the nature of the services to be performed.
                            Because this was a construction contract, the competitive
                            bidding process should have been used to procure the
                            construction services.

                        Because adequate justification letters were not provided for a
                        majority of the contracts reviewed, there was no assurance that
                        professional service contracts were being awarded in accordance
                        with the competitive and other procurement requirements.
                        Therefore, there was no assurance that the Government received
                        the best services available and at the most advantageous prices.

                        We believe that Property and Procurement should strictly
                        enforce the procurement laws and regulations and ensure that
                        operating agencies adhere to the established procurement
                        procedures. In that regard, Property and Procurement’s control
                        over the Government’s procurement activities should be
                        strengthened to authorize the Commissioner of Property and
                        Procurement, as the Government’s duly authorized contracting
                        official, to be the last person to approve/sign contracts. To that
                        end, the procurement process should be further revised so that
                        the Department of Justice’s legal reviews take place before
                        proposed contracts are approved/signed by the Commissioner of
                        Property and Procurement. Also, consideration should be given
                        as to the necessity of the Governor also approving/signing all
                        contracts. For example, if the Governor approved/signed only
                        contracts of special concern, most contracts could be considered
                        officially executed upon the signature of the Commissioner of
                        Property and Procurement. The Commissioner would then be in
                        a better position to enforce compliance with the procurement
                        laws and regulations by refusing to approve contracts that were
                        not in compliance.


Contracts Awarded       The Virgin Islands Code (31 V.I.C. § 233) states, "The
Without Evidence that   Commissioner of Property and Procurement shall not issue
Funding was Available   any order for delivery on a contract or open market purchase
                        unless the request for purchase bears certification that there is
                        to the credit of the department, office, board, institution or
                        other agency concerned a sufficient unencumbered
                        apportionment of its appropriation balance, in excess of all
                        unpaid obligations, to defray the amount of such order."
                        Based on this requirement, contracts sent to Property and
                        Procurement for processing should be accompanied by a
                        Miscellaneous Encumbrance Document showing that funds

                                      9
have been have set aside to pay contract costs. However, we
found that Property and Procurement allowed Government
agencies to enter into 8 contracts totaling $4.6 million for
which funds had not been set aside and 16 other contracts
totaling $13.3 million for which the funds set aside were not
sufficient to meet the full contract amounts. For example:

‘ In January 2001, the Department of Justice entered into a
    $4.3 million contract for development of a system for
    child support enforcement in the Virgin Islands.
    However, the contract file did not contain any evidence
    that funds had been set aside to pay the contract cost.

‘ In August 2000, the Department of Human Services
    entered into a $3.8 million contract for services to
    maintain, enhance, and support a client benefit system.
    However, the contract file contained evidence of
    available funds totaling only $39,000, or just over
    1 percent of the total contract cost.

‘ In April 1999, the Department of Justice entered into a
    $83,744 contract for the services of a Special Assistant
    Attorney General. The contract files at Property and
    Procurement did not have any information regarding this
    contract. Similarly, contract information from the
    Department of Justice did not include any evidence that
    funds had been set aside to pay the contract cost.

‘ In August 2001, the Office of the Governor entered into a
    $35,000 contract for services to provide dance instruction
    in traditional and cultural dances at five public schools in
    the Virgin Islands. An encumbrance document contained
    in the contract file indicated that the encumbrance had
    been canceled, and there was no other information to
    show that funds had been set aside to pay the contract
    cost. Another document indicated that a nonprofit
    organization for which the contractor worked was paid in
    April 2001 (4 months before execution of the contract).

In all 24 instances of contracts without documentation of
adequate sources of funding, there was no indication that
Property and Procurement had returned the contracts to the
user agencies to obtain proper documentation of funding or
had otherwise requested such documentation. We also noted
that all 24 contracts were approved for legal sufficiency by the
Department of Justice despite the missing or insufficient
funding documentation. We believe that Property and

             10
                           Procurement should discontinue the practice of approving
                           contracts when there is an insufficient encumbrance to pay for
                           the services that are being contracted. In our opinion, this
                           practice undermines the financial integrity of the Government
                           of the Virgin Islands by establishing contractual obligations in
                           cases where sufficient funds might not be available to pay
                           contract costs.


Payments of $4.6 Million   Professional service contracts contain a clause which states that
Made Before the Related    the effective date of the contract is the date the contract is
Contracts Were Fully       executed by the Governor of the Virgin Islands. However, we
Executed                   found that contractors were allowed to start work on 31 contracts
                           before the contracts were executed by the Governor. For 28 of
                           those 31 contracts, payments totaling $4.6 million were made to
                           the contractors before the contracts were fully executed. For
                           example:

                           ‘ In July 2000, the Department of Public Works awarded a
                               $320,000 contract for the maintenance of wastewater
                               facilities. The contract was signed by the Governor on
                               July 17, 2000 and, according to contract provisions, the
                               effective period was from the date of the Governor’s
                               signature to 30 days thereafter (or August 16, 2000).
                               However, Addendum I to the contract listed 117 invoices
                               (all dated from February 3, 1997 to December 14, 1999)
                               that were to be paid under the contract. Therefore, it
                               appears that the contract was simply a pro-forma method of
                               paying the contractor for work that had been performed as
                               long as 3 years prior without a contract. The contractor
                               subsequently received payments totaling $315,839.

                           ‘ In October 1999, the Department of Human Services hired
                               a contractor to provide residential rehabilitative services to
                               adolescents in the Virgin Islands. The contract was signed
                               by the Governor on March 3, 2000, or 5 months after the
                               contractor had started work under the contract. The
                               contractor eventually received payments totaling $807,544
                               for work performed during the period of October 1999 to
                               February 2000.

                           ‘ In August 2001, the Office of the Governor hired a
                               contractor to provide a comprehensive report about primary
                               health care for indigent school children in the Virgin
                               Islands. The contract was signed by the Governor and
                               officially became effective on August 30, 2001 - just 1 day
                               before the August 31, 2001 end date stated in the contract.

                                        11
                               Prior to August 30, 2001, the contractor had already been
                               paid $3,803 for work performed under the contract during
                               the period of June 13, 2001 to July 6, 2001.

                           We found that it was common for Government agencies to allow
                           professional service contractors to perform work before their
                           contracts were prepared and fully executed. A Government
                           official told us that about 50 percent of the professional service
                           contracts that are sent to Property and Procurement are for
                           services that have already been provided by the contractors.
                           Property and Procurement officials also stated that the lengthy
                           procurement process and a lack of proper documentation by the
                           user agencies contributed to this problem. We believe that the
                           Commissioner of Property and Procurement should explore
                           options to streamline the procurement process and discontinue
                           the practice of allowing contractors to perform and be paid for
                           services before their contracts have been fully executed. In
                           addition to being a violation of the Virgin Islands Code
                           (31 V.I.C. § 236), which requires that contracts for more than
                           $5,000 be in writing, the existing practice put both the
                           Government and contractors at risk in the event of a breach of
                           contract by the other party or a disagreement concerning the
                           provisions of the unexecuted contracts.


Contracts Were Awarded     The Virgin Islands Code (31 V.I.C. § 236(g)) requires that all
to Vendors Who Did Not     bidders for contracts with the Government have a valid license
Have Valid Business        issued by the Department of Licensing and Consumer Affairs
Licenses                   to do business in the Virgin Islands. We found that, of the
                           70 files reviewed, 9 contractors did not have valid business
                           licenses. In addition, one contractor had a valid business
                           license, but not for the type of service he was providing under
                           contract with the Government.


Contracts Awarded to       The Virgin Islands Code (3 V.I.C. § 706(c)) provides that "any
Government Retirees for    member [of the Government Employee Retirement System]
Periods in Excess of the   receiving a service retirement annuity who reenters the service
Grace Period Allowed by    of the Government may continue to receive his annuity while in
Law                        receipt of salary from the Government, either by appointment or
                           on a contractual basis, for a period of time not to exceed 75 days.
                           At the end of such period, the service retirement annuity shall be
                           canceled and the member shall thereupon again become a
                           contributor to the system." During our review, we found that
                           three retirees received professional service contracts and
                           provided services under those contracts for periods of more than


                                        12
                         75 days, but still received their retirement annuities from the
                         Government Employees Retirement System. Specifically:

                         ‘ An employee of the Department of Justice retired on
                             March 31, 2000 and had a $12,000 contract to provide
                             professional services to the Department for a period of
                             75 days, beginning on August 2, 2000. However, based on
                             invoices submitted by the retiree, the retiree provided
                             services under the contract from August 2, 2000 to January
                             31, 2001, or for a total of 182 days. The individual
                             continued to receive an annuity during this period.

                         ‘ An employee retired on December 31, 1998 and had a
                             $6,840 contract with the Department of Education to
                             provide training, technical assistance, and monitoring of
                             nutrition programs during the period of October 2, 2000 to
                             December 29, 2000, or a total of 88 days. The retiree
                             continued to receive an annuity during this period.

                         ‘ Another employee retired on October 31, 1994 and had a
                             $60,000 contract with the Department of Public Works to
                             provide consulting services for a period of 2 years,
                             beginning in July 2001. The retiree continued to receive an
                             annuity during this period.

                         Officials of the Government Employees Retirement System
                         stated that they were not notified when Government retirees
                         received professional service contracts with the Government.
                         We believe that the Property and Procurement, the Government
                         Employees Retirement System, and the Department of Finance
                         should develop procedures to ensure that the Retirement System
                         is notified when Government retirees are awarded contracts or
                         paid under contracts for periods exceeding 75 days.


Federal Regulations      In March 2001, the Department of Public Works awarded a
Disregarded in the       contract to turn control over an item of Federal surplus property
Use of Federal Surplus   to a for-profit company located in the British Virgin Islands.
Property                 The contract allowed the company to repair, maintain, and
                         operate a Mobile Reverse Osmosis Water Production Unit
                         (ROWPU) in the British Virgin Islands as part of a 3-year
                         for-profit venture. The U.S. General Services Administration
                         had donated the ROWPU to the Government of the Virgin
                         Islands in 1998 to be used as a water desalination barge.

                         Two memorandums, dated June 29, 1995 and July 27, 1995,
                         from the General Services Administration stated that because the

                                      13
ROWPU was more than 50 feet in length and cost more than
$5,000, its use was subject to special terms and conditions and
it must be used by the Government of the Virgin Islands for at
least 5 years before it could be disposed of. In November 1999,
the Commissioner of Property and Procurement wrote to the
Commissioner of Public Works informing him that the General
Services Administration had advised that the ROWPU was
subject to special restrictions until July 2003 and was not to be
used as part of a for-profit venture even if such activity was
undertaken by the Government of the Virgin Islands.

On March 1, 2001, Property and Procurement’s attorney wrote
to the Commissioner stating that the proposed contract may
breach the conditions under which the ROWPU was given to the
Government. As a result, the Commissioner of Property and
Procurement returned the contract to the Department of Justice
without approval. However, in a March 5, 2001 letter to the
Commissioner of Property and Procurement, a Department of
Justice official stated that the proposed contractor would be
serving as an asset for the Government by maintaining,
repairing, and operating the ROWPU and that the proposed
contract did not violate the terms of the agreement between the
General Services Administration and the Government of the
Virgin Islands. Based on this letter, the Commissioner of
Property and Procurement approved the contract on March 6,
2001, and it was signed by the Governor on March 7, 2001.

The existence and nature of the contract was publicized at a
Legislative hearing on April 4, 2001, and a few days later it was
publicly disclosed that the contractor was related to a
high-ranking Government official. Following public criticism,
the contract was canceled and the Government ordered the barge
returned to the Virgin Islands. The contract stipulated that the
agreement may be terminated by either party with not less than
90 days notice in writing to the other, except in the event of an
emergency. At such termination all accounts were to be adjusted
and the contractor credited for its capital infusion into the
project. The contractor submitted invoices for reimbursement of
expenses incurred to make the ROWPU barge operable totaling
$75,000. Property and Procurement officials stated that they
forwarded the invoices to the Commissioner of Public Works
with a recommendation that they be paid. As a result of not
following the Federal requirements regarding the handling of
surplus property, the Virgin Islands Government incurred
unnecessary costs totaling $75,000.



             14
                       The Government did not adequately monitor the performance of
MONITORING OF          professional service contractors and the accuracy of payments to
CONTRACTOR             contractors.
PERFORMANCE AND
PAYMENT NOT            We interviewed officials at operating agencies of the
SUFFICIENT             Government to determine whether the agencies had implemented
                       procedures to monitor contractor performance. Of the
                       70 contracts included in our sample, we found that 35 contracts
                       had been adequately monitored and we eliminated 6 contracts
                       from our review because the contracts either had not been fully
                       executed or had been canceled. Of the 29 remaining contracts,
                       24 contracts were not being monitored because such procedures
                       had not been established by the user agencies, and we could not
                       evaluate 5 contracts because sufficient information was not
                       available at the user agencies. For example:

                       ‘ Two responsible officials at the Department of Justice had
                           no knowledge of a contract to inspect and test the fire alarm
                           system at the adult correctional facility on St. Thomas. One
                           of the officials commented that the Government could not
                           have entered into such a contract because a key component
                           of the alarm system to be tested was not operational at the
                           time when the contract was effective. The official
                           contacted us a few days after our initial audit interview and
                           stated that he arranged for the contractor to inspect the
                           alarm system and that the contract would be effective the
                           date of the inspection. However, the contract had already
                           expired and the contractor was paid for services that may or
                           may not have been rendered.

                       ‘ The Department of Education had a contract with a school
                           in the United States to provide rehabilitative services for a
                           student. Education officials stated that periodic site visits
                           to the school were never performed, and the only visit made
                           was when the student was first placed at the school.

                       The Government of the Virgin Islands should implement
                       procedures to ensure that the performance of all contractors is
                       monitored regularly. Such procedures would ensure that the
                       contractors were satisfactorily performing the services for which
                       they were being paid.


Five Contractors       We reviewed payment records for 57 of the 70 professional
Overpaid by $130,000   service contracts in our sample. (For various reasons, the other
                       13 contracts did not have any payments made at the time of our
                       review.) A total of 317 payments totaling $16.4 million were

                                    15
made against the 57 contracts reviewed. Of that amount, we
noted that five contractors had been overpaid a total of
$130,000. For example:

‘ In October 1998, the Department of Public Works hired a
    contractor to perform garbage removal services for an
    amount of "not to exceed" $125,000. However, the
    payments processed against the contract totaled $186,350,
    or $61,350 above the maximum contract amount. The
    $61,350 included a duplicate payment of $2,700 for the
    period of December 28, 1998 to January 2, 1999 and $4,480
    in differential pay that was not provided for in the written
    contract. With regard to the differential pay, we found that,
    although the contract specified a billing rate of $540 per
    day, the contractor billed Public Works and was paid at a
    rate of $680 per day for weekends. Public Works officials
    told us that the $680 weekend rate was verbally agreed
    between the two parties. However, because the contract
    was over $5,000, all provisions should have been included
    in the written contract, not in an unofficial verbal
    agreement. During our review, we further noted that the
    contractor had a second, identical contract with Public
    Works covering the same services and time period and
    under the same terms and conditions as the first contract.
    Public Works officials were unaware of the existence of
    duplicate contracts and stated that the first contract, which
    was not formally executed until March 2000, was issued to
    pay the contractor for services that had already been
    provided.

‘ In May 1999, the Department of Public Works entered into
    another contract for garbage removal services for an
    amount "not to exceed" $65,000. However, the payments
    processed against the contract totaled $114,375, or $49,375
    in excess of the maximum contract amount.

‘ In May 2000, the Department of Tourism entered into a
    $659,800 contract for design and development of an official
    tourism web site. Payments under the contract included an
    allowance of $22,300 for contract-related travel expenses.
    However, Tourism officials did not have documentation to
    support the amount of travel expenses actually incurred by
    the contractor. Based on our inquiry, the contractor
    provided travel receipts totaling $9,160 and agreed to
    refund Tourism for the unused $13,140 balance of the travel
    allowance.


            16
Overpayments on professional service contracts could have been
avoided if Government agencies had adequately monitored
payments against the contracts to ensure that they did not exceed
the maximum contract amounts and were in accordance with
contract provisions and adequately supported.




             17
RECOMMENDATIONS
                  We recommend that the Governor of the Virgin Islands:
TO THE GOVERNOR
OF THE VIRGIN          1. Issue a directive to all Executive Branch agency heads
ISLANDS           directing them to ensure that they adhere to the established
                  procurement laws and regulations when contracting for
                  professional services.

                  We also recommend that the Governor of the Virgin Islands
                  direct the Commissioner of Property and Procurement to:

                       2. Revise the procurement process so that the
                  Commissioner of Property and Procurement, as the
                  Government’s duly authorized contracting officer, be the last
                  Government official to approve/sign contracts. In revising the
                  procurement process, have the Department of Justice perform its
                  legal review of proposed contracts prior to their submission to
                  Property and Procurement, and requiring the Governor’s
                  signature only on contracts of special significance.

                       3. Strictly enforce the procurement laws and regulations
                  and ensure that operating agencies adhere to the established
                  procurement laws and regulations when awarding professional
                  service contracts.

                       4. Discontinue the practice of allowing contractors to
                  perform and be paid for services before their contracts have been
                  fully executed.

                       5. Discontinue the practice of approving contracts when
                  there are insufficient encumbered funds to pay for the services
                  that are being contracted or when the contractors do not have the
                  appropriate business licenses.

                       6. Develop, jointly with the Government Employees
                  Retirement System and the Department of Finance, procedures
                  to ensure that the Retirement System is notified when
                  Government retirees are awarded contracts or paid under
                  contracts for periods that exceed the 75-day grace period
                  allowed by law.

                       7. Implement procedures to ensure that, in the event
                  surplus Federal property is donated to the Government, that such



                               18
                           property is used in accordance with applicable Federal
                           requirements.

                                8. Implement procedures to ensure that the performance of
                           all contractors is monitored regularly to ensure that they
                           satisfactorily perform the services for which they were
                           contracted and paid.

                               9. Implement procedures to ensure that payments to
                           contractors are monitored to ensure that they are in accordance
                           with contract provisions, do not exceed maximum contract
                           amounts, and are supported by adequate documentation.

                              10. Recover overpayments of $130,000 that were made to
                           contractors.


                           The draft report was issued on May 31, 2002 and a response was
AUDITEE RESPONSE           requested by July 15, 2002. At the request of Government
                           officials, the response due date was extended to August 15,
                           2002. On August 19, 2002, we received, from the Office of the
                           Governor, a response dated July 15, 2002 (Appendix 3) that was
                           prepared by the Commissioner of Property and Procurement.
                           The Commissioner’s response concurred with all ten
                           recommendations and provided additional information in
                           support of the recommended actions.


                           Although the Commissioner of Property and Procurement
OFFICE OF         concurred with all ten recommendations, the response did not
INSPECTOR GENERAL provide information as to whether the Governor would support
REPLY             efforts by the Commissioner to require operating agencies to
                           comply with procurement requirements. We believe that
                           without direct support from the Governor, it is unlikely that the
                           Commissioner of Property and Procurement would be in a
                           position to require compliance by operating agencies.
                           Additionally, we changed Recommendation 10 to require the
                           recovery of the overpayments to contractors of $130,000.
                           Therefore, a response to Recommendations 10 is needed. Also,
                           Recommendation 1 requires a response from the Governor, and
                           Recommendations 2 through 9 need a plan of action from the
                           Commissioner for implementing the recommendations.
                           Therefore, we have requested additional information for the ten
                           recommendations (see Appendix 4).




                                        19
APPENDIX 1 - MONETARY IMPACT
                                                          Questioned Costs
FINDING AREAS                      Funds To Be Put   Unsupported       Cost
                                   To Better Use*       Costs*      Exceptions*

Contract Procurement
    Use of Federal Property           $75,000

Contract Monitoring & Payment
    Payments Without Contract                         $1,019,791
    Contract Overpayments                                            $130,000

     Totals                           $75,000         $1,019,791     $130,000




__________
* Amounts represent local funds.




                                      20
APPENDIX 2 - PRIOR AUDIT REPORTS
                           The June 1989 audit report "Professional and Consulting
OFFICE OF INSPECTOR Services Contracts, Government of the Virgin Islands"
GENERAL REPORT      (No. 99-88) stated that Government agencies did not follow
                           established regulations for the procurement of professional and
                           consulting services. Specifically, agency officials negotiated
                           and awarded noncompetitive contracts without adequate
                           justification. As a result, Government agencies (1) processed
                           165 procurement actions, for $18 million, without adequate
                           competition and therefore had no assurance that these services
                           were acquired at fair and reasonable prices; (2) expended almost
                           $200,000 for overpriced, undelivered, unusable, or duplicated
                           services; (3) incurred excessive construction costs of almost
                           $1 million; and (4) failed to recover about $52,000 in amounts
                           due from contractors. Our current audit also disclosed that the
                           Government did not always follow the established procurement
                           regulations.




                                        21
APPENDIX 3 - RESPONSE TO DRAFT REPORT




                   22
     APPENDIX 3
       Page 2 of 6




23
     APPENDIX 3
       Page 3 of 6




24
     APPENDIX 3
       Page 4 of 6




25
     APPENDIX 3
       Page 5 of 6




26
     APPENDIX 3
       Page 6 of 6




27
APPENDIX 4 - STATUS OF RECOMMENDATIONS
Finding/Recommendation
       Reference              Status                      Action Required

        1 to 9           Management         Provide a plan of action for implementation
                         concurs;           of the recommendations that states the
                         additional         specific corrective action to be taken and
                         information        includes the target date and title of the
                         required.          official responsible for implementing each
                                            recommendation.

         10              Unresolved.        Provide a response to the recommendation.




                                       28
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free               800-424-5081
                             Washington Metro Area           202-208-5300
                             Hearing Impaired (TTY)          202-208-2420
                             Fax                             202-208-6081
                             Caribbean Region                340-774-8300
                             Northern Pacific Region         671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                           U.S. Department of the Interior
                             Office of Inspector General
                                 1849 C Street, NW
                               Washington, DC 20240
                                       www.doi.gov
                                      www.oig.doi.gov
